<html>
<title> - AN OVERVIEW OF THE NATION'S WEATHER SATELLITE PROGRAMS AND POLICIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









                      AN OVERVIEW OF THE NATION'S 
                WEATHER SATELLITE PROGRAMS AND POLICIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON ENVIRONMENT &
                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           December 10, 2015

                               __________

                           Serial No. 114-55

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov




                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-825 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          



















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.          SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                       Subcommittee on Oversight

                 HON. BARRY LOUDERMILK, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DON BEYER, Virginia
    Wisconsin                        ALAN GRAYSON, Florida
BILL POSEY, Florida                  ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
DAN NEWHOUSE, Washington
LAMAR S. SMITH, Texas





















                            C O N T E N T S

                           December 10, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement submitted by Representative Donald S. Beyer, Jr., 
  Ranking Minority Member, Subcommittee on Oversight, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

Statement by Representative Barry Loudermilk, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    18

                               Witnesses:

Dr. Stephen Volz, Assistant Administrator, National Environmental 
  Satellite, Data, and Information Services, National Oceanic and 
  Atmospheric Administration
    Oral Statement...............................................    20
    Written Statement............................................    23

Mr. David Powner, Director, Information Technology Management 
  Issues, Government Accountability Office
    Oral Statement...............................................    37
    Written Statement............................................    39
Discussion.......................................................    63


             Appendix I: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    88

Statement submitted by Representative Suzanne Bonamici, Ranking 
  Minority Member, Subcommittee on Enviorment, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    89

 
                      AN OVERVIEW OF THE NATION'S
                       WEATHER SATELLITE PROGRAMS
                              AND POLICIES

                              ----------                              


                      THURSDAY, DECEMBER 10, 2015

                  House of Representatives,
            Subcommittee on Environment and
                  Subcommittee on Oversight
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee on Environment] 
presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bridenstine. The Subcommittee on the Environment 
and the Subcommittee on Oversight will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the Subcommittee at any time.
    Welcome to today's hearing titled ``An Overview of the 
Nation's Weather Satellite Program and Policies.''
    I recognize myself for five minutes for an opening 
statement and then to the Ranking Member as well.
    We've had a number of hearings about all kinds of issues 
related to satellites from the current programs of record to 
commercial satellites. We've heard testimony about JPSS and 
GOES-R already once this year, and this is a second opportunity 
to do so.
    Some of the concerns that I have are the delay of the GOES-
R satellite program from March of 2016 to October of 2016. 
Obviously this is a concern for the weather of our country, 
being able to predict and forecast accurate and timely weather 
events, critically important infrastructure for the data that 
feeds our numerical weather models, which keep all of our 
constituents safe.
    So this is a good hearing. We have heard testimony before. 
Going along with the delay in GOES-R, we have an extension of 
the life expectancy of some of our current programs, and we 
have questions about if that is realistic or not. We have seen 
now NOAA-16 break apart in space over Thanksgiving, and that 
gives a lot of us concern about maybe it didn't just break 
apart on itself. I know some have suggested that but something 
had to occur, whether it was a malfunction on board the 
satellite, even though it was beyond its lifetime, or it could 
have been hit by debris. Whatever the case is, it broke apart 
and now is contributing to more orbital debris, which is a 
concern.
    That being the case, you think about orbital debris, you 
think about the Suomi NPP satellite that also is coming to the 
end of its useful life and it's not shielded. It wasn't 
designed for long-term service. It was designed more for 
testing and validation. So when you look at the SUOMI-NPP 
satellite, is it being pelted by debris? Is it at risk? And of 
course, would that create, you know, a gap as it relates to our 
polar orbiting satellite programs and the challenges that we've 
had with JPSS to date as well.
    We'd also like to discuss NOAA's Commercial Space Policy, 
which is a wonderful start to, I think, great opportunities for 
the future to provide more resiliency and redundancy, 
disaggregated and distributed architectures that the commercial 
industry can provide to augment our numerical weather models 
with data coming from the private sector, and some of the issue 
that are going on there. And finally, the issue with debris 
mitigation, I think are critically important not only to NOAA 
but to national security space and civil space as well, and 
commercial space.
    So I'm looking forward to this hearing, looking forward to 
the testimony of our witnesses.
    [The prepared statement of Chairman Bridenstine follows:]
    [GRAPHIC] [TIFF OMITTED] T0825.008
    
    [GRAPHIC] [TIFF OMITTED] T0825.009
    
    Chairman Bridenstine. And I'd like to recognize now the 
Ranking Member, Mr. Beyer, for his opening statement.
    Mr. Beyer. Thank you, Mr. Chairman, very much, and thank 
you, Chairman Bridenstine and Chairman Loudermilk, for holding 
today's hearing. I'd also like to thank and welcome our 
witnesses this morning.
    As has been stated by our Chairman, the goal of the 
Committee's oversight in this area is simple. It's to ensure 
that both the Joint Polar Satellite System (JPSS) and the 
Geostationary Operational Environmental Satellites (GOES) are 
technically sound and operationally robust when they're 
completed, which we all hope is as soon as possible. As 
satellites that have a critical role in weather forecasting, 
losing coverage of either system could have serious, perhaps 
catastrophic effects on our public safety.
    Unfortunately, NOAA's development of both of these weather 
satellite systems has had a rocky path. They've been plagued by 
cost growth, poor schedule performance, technical issues and 
management challenges.
    During the Subcommittee's hearing on these projects in 
February it seemed that JPSS was the more troubled of the two 
but now it looks like GOES-R has now been delayed by more than 
six months until, as the Chairman said, the new October 2016 
launch date, which may still be at risk.
    These ongoing delays on these programs increase the cost of 
the satellites, distort NOAA's budget, and limit the agency's 
resources for weather forecasting and important research into 
weather, oceans, and climate science.
    We know that satellite acquisition is no easy task and 
these problems are not unique to NOAA. They routinely occur in 
the development of satellite programs by the Department of 
Defense, the U.S. intelligence community, NASA. But that isn't 
an excuse, and I believe that NOAA recognizes that this is an 
unsustainable model, and that going forward the agency will 
need to find a more efficient and more reliable means of 
putting its instruments into orbit.
    Shifting back to the work conducted by Mr. Powner and his 
team at GAO, it's my understanding that since 2012 they've 
issued 23 recommendations to NOAA that they believe will 
strengthen the agency's acquisition efforts and improve their 
contingency planning, but to date, just six of these 
recommendations have been implemented. So I'm interested in 
learning more today about the remaining recommendations and 
NOAA's progress in addressing them.
    Additionally, I think it's important for Congress and this 
Committee to have a clear understanding of NOAA's policies and 
planning as it relates to these critical satellites. NOAA's 
decision to change the expected lifespan of its weather 
satellites needs to be transparent and clearly documented. 
NOAA's satellites also provide the data necessary for our 
weather models and the critical forecasting and warning 
products and services provided by the National Weather Service. 
In fact, the capabilities of the National Weather Service are 
directly dependent on the quality and success of our satellite 
programs as well as a highly skilled workforce.
    So while it's not the focus of today's hearing, I want to 
mention some important work GAO is conducting on behalf of my 
colleagues, Ms. Bonamici, Mr. Lipinski, and me. Specifically, 
we've been concerned about the number of vacancies that 
currently exist in the National Weather Service's field 
offices, and we've asked GAO to review present and future 
staffing levels in order to support the agency's efforts to 
evolve its operational components and to increase its decision 
support services. Ensuring an adequate workforce is also 
central to achieving NOAA's public safety mission. We can't 
afford a weather satellite gap, and it is essential that NOAA 
keep these programs on track. I know these are both technically 
difficult and critically important issues that NOAA needs to 
address.
    So thank you, Mr. Chairman and Mr. Chairman. I look forward 
to today's hearing.
    [The prepared statement of Mr. Beyer follows:]
    [GRAPHIC] [TIFF OMITTED] T0825.014
    
    [GRAPHIC] [TIFF OMITTED] T0825.015
    
    Chairman Bridenstine. I thank the Ranking Member for his 
opening statement.
    I'd like to recognize the Chairman of the Oversight 
Committee, Mr. Loudermilk from Georgia.
    Mr. Loudermilk. Thank you, Mr. Chairman. Good morning to 
our witnesses, and thank you for being here. Mr. Chairman, 
thank you for holding this hearing.
    Today we'll be hearing from GAO and NOAA regarding the 
polar orbiting and geostationary satellite programs. The JPSS 
and GOES-R programs that NOAA maintains have experienced 
setbacks. Today we intend to learn what has changed since our 
last hearing back in February of this year.
    Earlier this year, GAO published a report detailing its 
concern that the NOAA polar satellite program, JPSS, is facing 
an unprecedented gap in satellite data. GAO believes that while 
JPSS remains within its new lifecycle cost estimate and 
schedule baselines, recent rises in component costs and 
technical issues during development increase the likelihood of 
a near-term data gap. Additionally, although NOAA has recently 
reduced its estimated potential gap from fifteen to only three 
months, GAO noted that this assessment was based on incomplete 
data and does not account for the risks posed by space debris 
to satellite hardware. This is even more concerning given the 
recent breakup of a retired NOAA satellite in orbit. GAO 
estimated in its report that a data gap may occur earlier and 
last longer than NOAA anticipates.
    Perhaps even more troubling is the potential data gap 
facing NOAA's GOES-R program, the geostationary satellite 
system. Since its inception, the GOES-R program has undergone 
significant increases in cost and reductions in scope, and as 
GAO's report indicates, NOAA has yet to reverse or even halt 
this trend, as we have seen with the most recent delay to the 
launch, pushing a March 2016 launch date back to October 2016. 
This means we could be facing a long period without a backup 
satellite in orbit.
    History has shown us that backups are sometimes necessary 
to reduce risk to public safety and the economy. In 2008 and 
2012, the agency was forced to use backup satellites to cover 
problems with operational satellites, a solution we may once 
again find ourselves needing.
    When talking about the consequences of a gap in weather 
data, the first thought in the minds of many is of the 
devastating effects of extreme weather on the ground. However, 
professional and personal history shows me--allows me to 
discuss the impact of gap weather data on aviation weather.
    As a private pilot, I know the importance of having 
accurate and timely weather forecasts to assess flying 
conditions. Pilots require accurate weather data to evaluate 
conditions on the ground and in the sky throughout the entire 
flight process, from takeoff to landing. Without accurate data 
a pilot runs the risk of what we call ``getting behind the 
plane,'' a general aviation phrase which means that the plane 
is responding to the conditions and the pilot is responding to 
the plane, a situation that spells trouble for even the most 
seasoned pilots.
    Experience as a pilot does not exempt someone from getting 
behind the plane as weather deteriorates, as I have conducted 
many search-and-rescue missions over the years, even led some 
of those, and without exception, every missing aircraft that we 
ended up finding as a result of weather resulted in a fatality. 
We were basically taking remains home to the families so they 
can be comforted they were found. Your experience doesn't 
matter.
    Even the most experienced aviators when they get in a 
weather situation, it can spell disaster, one of those being 
Scott Crossfield. Scott Crossfield is a pioneer in aviation in 
America. He was the second to break the sound barrier. We 
conducted a search-and-rescue mission to find the remains of 
his plane as it broke up in a thunderstorm over northeast 
Georgia.
    My personal experience as well: once flying to Florida, I 
had accurate satellite weather data in the cockpit with me 
which showed thunderstorms coming off the Gulf of Mexico. I was 
able to accurately determine not only that I should be able to 
beat the thunderstorm into my destination but also alternate 
airports to my west that were clear and available. Without 
that, I could've ended up in a very difficult situation or not 
made it to my destination. As I was flying in, I also heard of 
other pilots who didn't have that information with mayday calls 
being into the weather.
    With our reliance on GPS weather data, Mr. Chairman, I'm 
afraid that without accurate weather, these incidents would be 
more frequent.
    From this perspective, you can see how a gap in weather 
data, and consequently less accurate forecasts, could 
negatively affect not only commercial flight safety, but also 
the $1.5 trillion in total economic activity that the aviation 
industry contributes to the national economy.
    I hope that today's hearing will shed some light on the 
complex schedule and cost demands facing NOAA's weather 
satellite programs and that the Subcommittees will walk away 
better equipped to consider these issues moving forward.
    And Mr. Chairman, I know that as an aviator yourself, you 
understand this as well, and I yield back the balance of my 
time.
    [The prepared statement of Mr. Loudermilk follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    Chairman Bridenstine. I'd like to thank the Chairman, 
Chairman Loudermilk, for his comments. Certainly, I have been 
in those situations myself, and I appreciate your testimony on 
them.
    Let me introduce our witnesses. First, our first witness 
today is Dr. Stephen Volz, Assistant Administrator of National 
Environmental Satellites, Data and Information Services at 
NOAA. Dr. Volz has a Ph.D. in experimental condensed matter 
physics from the University of Illinois at Urbana Champaign, a 
master's degree in physics from The University of Illinois, and 
a bachelor's degree in physics from the University of Virginia.
    Our second witness today is Mr. David Powner, Director of 
Information Technology Management Issues at the GAO. Mr. Powner 
received his bachelor's degree in business administration from 
the University of Denver and attended the senior execute 
fellows program at Harvard.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made a part of the record, and we on this Committee have 
mostly probably already read it.
    I now recognize Dr. Volz for five minutes to present his 
testimony.

                 TESTIMONY OF DR. STEPHEN VOLZ,

                    ASSISTANT ADMINISTRATOR,

               NATIONAL ENVIRONMENTAL SATELLITE,

                DATA, AND INFORMATION SERVICES,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Volz. Well, good morning, Chairmen Bridenstine and 
Loudermilk, Ranking Member Beyer, and Members of the 
Subcommittees. Thank you for the invitation to participate in 
today's hearing and to discuss the status of NOAA's satellite 
programs.
    As both of you or many of you have mentioned, NOAA provides 
environmental intelligence in a global way that is timely, 
accurate, actionable and reliable space-based information to 
citizens, communities and business as they need to stay safe 
and to operate efficiently.
    The NOAA satellite portfolio provides continuous satellite 
data that are integral to weather forecasting, and NOAA, 
working with NASA, conducts essential satellite development to 
ensure the continuity of this critical service.
    Our current operational geostationary and polar-operating 
satellites provide on a 24/7 basis the space-based weather data 
required to support NOAA's National Weather Service and as well 
as the private weather industry and many other users who rely 
on those services as well.
    The geostationary satellites currently in orbit, GOES-East 
and GOES-West, provide constant monitoring from the Atlantic 
Ocean, the continental United States, Hawaii, and the Pacific 
for weather, and they are backed up by our fully functioning 
spare satellite, GOES-14, situated midway between them ready to 
ride backup, as was mentioned as the need for in the event of a 
significant satellite anomaly to either of the others.
    We are currently working towards an October 2016 launch for 
the next-generation geostationary satellite, GOES-R. While we 
are working diligently towards this date, there are still risks 
ahead of us to get this new highly capable and complex 
satellite launched on time. NOAA and NASA are working with 
contractors to identify and mitigate risks by applying all 
appropriate resources and expertise to meet this important 
launch milestone. To that end, we are monitoring the health of 
our current on-orbit assets to ensure that we maximize their 
operational utility until the GOES-R series satellites are 
launched, checked out and placed into operations.
    Meanwhile, while that's going on with the flight hardware, 
the ground system for GOES-R and the user community continue to 
prepare for the launch and rapid exploitation of the new data 
stream once it begins.
    For the polar-orbiting satellites, the first satellite of 
the JPSS program, the Suomi NPP satellite, is performing 
exceptionally as NOAA's primary afternoon polar satellite. Four 
years into its operating mission, the high-resolution sounds of 
the Suomi NPP, ATMS and CrIS instruments are continuously 
providing essential observations, feeding the National Weather 
Service's numerical weather prediction models and ultimately 
the weather forecasts we all depend on. The Suomi NPP VIIRS 
imagery has brought much improved observations of sea ice in 
Alaska and Arctic waters as well as new and much more sensitive 
VIIRS low-light nighttime cloud imagery for that region as 
well. Weather observations from polar orbiting satellites are 
particularly important in Alaska and the polar regions where 
geostationary satellites cannot effectively observe.
    No matter than in March 2017, the second satellite of the 
JPSS's program, JPSS-1, will be launched joining Suomi NPP in 
providing global coverage and increasing the data flow 
supporting the NWS and the user community.
    JPPS-2 continues in development managed expertly by NASA 
and NOAA team and is proceeding on schedule for a late 2021 
launch as well.
    NOAA's observing system includes beyond these two satellite 
systems, the Jason-2 and DSCOVR satellites, and soon will 
include Jason-3, the COSMIC-2 constellation and radio 
occultation measurements, and hopefully the Cooperative Data 
and Resure Services mission, CDARS. These smaller and more 
focused missions provide essential environmental observations 
augmenting and complementing the polar and geostationary 
platforms.
    In all of these systems, NOAA draws extensively on the 
expertise of academia and private industry, relies heavily on 
productive partnerships with other U.S. agencies including 
specifically the U.S. Air Force and NASA, and on international 
agencies including EUMETSAT and CNES, and the National Space 
Organization of Taiwan to meet our observing needs. We also are 
expanding our approach to access to space through the 
commercially hosted payload approach for CDARS to find more 
efficient methods of access to space.
    In closing, since joining NOAA just over a year ago, I have 
continued to work the started by my predecessors to steadily 
rebuild the robustness of the Nation's operational weather 
satellite constellations. Our current polar-orbiting and 
geostationary satellites are aging but are generally healthy as 
they continue to provide the observations enabling those 
weather and environmental monitoring missions. We are making 
steady progress to launch the next generation of polar and 
geostationary satellites in the coming year to continue and 
improve the reliability and quality of these Earth 
observations. NOAA works closely with NASA, our acquisition 
agent, and with our industry and academic partners to implement 
proven development processes so that we can meet our critical 
mission milestones.
    Decisions continue to be made by individuals, governments, 
and businesses based on the weather forecast. Space-based 
observations are vital, the ability of NWS and commercial 
weather providers to produce and delivery these forecasts, and 
NOAA values the longstanding interest of the Committee in our 
satellite programs, and we appreciate the Congressional support 
to ensure these critical national weather programs achieve the 
robust state that is needed to support the Nation's weather 
enterprise.
    Thank you, and I look forward to the conversation.
    [The prepared statement of Dr. Volz follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
        
    Chairman Bridenstine. Thank you for your testimony, Dr. 
Volz. You were right on the five minute mark, which is what we 
expect from our NOAA and former NASA folks, so thank you for 
that.
    Mr. Powner, you are recognized for five minutes.

                 TESTIMONY OF MR. DAVID POWNER,

      DIRECTOR, INFORMATION TECHNOLOGY MANAGEMENT ISSUES,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Bridenstine, Loudermilk, Ranking 
Member Beyer, and Members of the Subcommittees, earlier this 
year, we testified on the GOES-R and JPSS satellite 
acquisitions. At that time we expressed concerns about the 
GOES-R March 2016 launch date and potential gaps in satellite 
coverage.
    As we have heard, the GOES-R launch date has been delayed 
again. I will provide updates on both acquisitions by 
displaying three graphics, which highlight key launch dates and 
expected lifespans of these satellites, many of which have been 
recently extended.
    On the first graphic, it displays the three GOES-R 
satellites that are currently in space. The first bar is GOES-
13, which covers the eastern half of the United States. The 
third bar is GOES-15, which covers the western half. The middle 
bar is GOES-14, which is your on-orbit spare. NOAA's policy is 
to have an on-orbit spare if something goes wrong with one of 
the operational satellites.
    The red bars here represent an extension to the lifespan of 
the operational satellites from the last time we testified. 
When asked what this was based on, we were given a 2005 
document supporting the lifespan extension. So a key question 
is why NOAA did not disclose this lifespan extension sooner.
    I'll add that in NOAA's 2016 budget submission, these red 
extensions were not included on their fly-out charts. This is 
an area where NOAA needs to be more open and transparent with 
the Congress, especially since longer lifespans affect the 
timing of future launches and the annual funding of these 
satellites, as I'll get into on the next chart.
    But before we leave this chart, I'd like to comment on, 
there have been problems with GOES-13 that have been mentioned, 
and the backup has been moved into operation several times. 
Also, currently a key sensor on GOES-13 has not been working 
since November 20th.
    Moving to the next chart, what this next chart does, the 
first three bars basically just replicate what you just saw 
with the extended lifespan. The fourth bar represents GOES-R 
and the delay in the launch of GOES-R to October 2016. I have 
three comments on this chart.
    First, the GOES-R bar, the fourth bar down, the delay 
occurred due to technical problems in about two years of 
extremely poor schedule performance. The program was losing 
about 10 days per month for a 24-month period. Mr. Chairman, in 
our opinion, NOAA should have more clearly disclosed the poor 
schedule performance to this Committee.
    My second point is the potential gap in backup coverage. 
The gold vertical bar here represents this projected gap. GOES-
13, even with the lifespan extension, reaches the end of its 
useful life about mid-2016, and 2014 and 2015 are your 
operational satellites. So there is no backup in orbit from 
mid-2016 until GOES-R launches and performs a six month 
checkout through about March or April of 2017. And if the GOES-
R October 2016 launch date is not met, this gap in backup 
coverage becomes even greater.
    My third and final point on this chart is the final two 
bears, GOES-S and T. We agree that both GOES-R and JPSS need to 
have robust constellations to ensure continuity of coverage, 
and this is exactly why we placed the potential gaps in weather 
satellites on GAO's high-risk list in January 2013. But 
extending these lifespans requires a relook at the timing of 
out-year satellites.
    With the third chart, I'd like to move the discussion from 
GOES-R to JPSS, the polar satellites. As you can see here, the 
red arrow represents a four-year lifespan extension on NPP, the 
current operational polar satellite in the afternoon orbit. We 
question whether this should extent to 2020, given NOAA's 
latest analysis supporting this. However, the good news here 
with JPSS is there is an annual review that is used to update 
the polar satellite lifespans, unlike the GOES programs.
    Regarding the J-1 launch, the middle bar here, of March 
2017, we are more concerned about this date than we have been 
prior. Key reasons are continued delays in delivery of the key 
instrument ATMS, continued delays in the ground system, and 
continued problems with a component on the spacecraft.
    And finally, on the chart, we think there is increased risk 
with J-2 since we have a new spacecraft contractor. On GOES, 
the story was that the performance will greatly improve with 
the delivery of the second GOES because there was a fair amount 
of learning with the first. It seems odd that that same logic 
wouldn't be applied to the second JPSS satellite.
    In conclusion, NOAA needs to be more transparent on risks 
and satellite lifespans. There needs to be a consistent policy 
to evaluate satellite lifespans, not just for JPSS but also for 
GOES, and we still have major concerns with the backup, with 
the gap in the backup for GOES-R, and also between NPP and 
JPSS-1, but after GOES-R and JPSS-1 launch, given NOAA's recent 
extensions, we're really not concerned about gaps after that 
point. In fact, Congress might have opportunities to reduce 
annual expenditures on these programs in upcoming years.
    I look forward to your questions.
    [The prepared statement of Mr. Powner follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    Chairman Bridenstine. Thank you, Mr. Powner, for your 
testimony. I recognize myself for five minutes for questions.
    I just wanted to go back to Dr. Volz. The commercial space 
policy I think is a great starting point. I think there's more 
information that needs to be forthcoming on how to actually 
interact with NOAA on the commercial capabilities that are out 
there right now.
    One of my questions is, right now when it comes to GPS 
radio occultation, we already have one company with satellites 
in space that are being tested and validated through UCAR, and 
we have other companies that are going to be launching next 
year numerous satellites into space. We heard testimony from 
you, and it's in your written testimony as well, about the 
COSMIC program. When we think about commercial applications, 
when we think about the 2010 Space Policy, Commercial Space 
Policy, would it not be appropriate to take advantage of these 
commercial opportunities rather than continue to develop COSMIC 
for however many millions of dollars that that's going to take?
    Dr. Volz. So related to the value, the capabilities of the 
oncoming commercial capabilities, you mentioned we do have 
assets now in space. Spire is one organization that has 
launched some satellites, and there are several others that are 
likely to launch in the near term, and from the NOAA 
perspective, we're very interested in seeing the performance of 
these satellites demonstrated on orbit.
    The COSMIC program that was launched first in 2006 and has 
been flying for many years providing radio occultation to NOAA 
and integrated into our numerical weather modeling is a proven 
and demonstrated performance capability that we have been 
taking advantage of. The COSMIC-2 is an extension of that, and 
we expect when the launch occurs in about a year, to add those 
observations into our data system. The value, the potential 
value of these new commercial ventures are very high but it's 
still potential, and I see we should be engaged with them, we 
should be watching and observing and analyzing the data that 
come from them once we develop the appropriate interaction 
engagement mechanism, but it should be compared against some 
standard, some measurement capability that we have as well with 
COSMIC already.
    So I think that ``both and'' is the approach I would take 
in approaching these. I think we need the COSMIC-2 because it 
continues a necessary measurement and it will provide an 
excellent benchmark for comparison for these alternative 
approaches which use the same method, the same measurement 
technique but a different implementation. So validating those 
on-orbit activities and observations will be key as we go 
forward, and I look forward to the opportunity to do that.
    Chairman Bridenstine. Your boss, Manson Brown, last month 
here in DC. at a business roundtable mentioned that he supports 
a line item in the President's budget request for a tech 
demonstration of commercial satellite weather data. Do you also 
support a line item for commercial satellite weather data?
    Dr. Volz. I support my boss, which is a good start. I do 
support----
    Chairman Bridenstine. Good idea.
    Dr. Volz. --the principle that we do need a focused effort 
to demonstrate the capability of these operations. So yes, I 
would support that. We've been working with NOAA, on a 
commercial policy that went out and is now being reviewed for 
updates, on the NESDIS side, as we do the actual 
implementation. We've been working on a process, an engagement 
process, for how we would work with industry, work with 
potential vendors to provide data, to secure data, to evaluate 
the data when it comes in and then decide whether it's capable 
of supporting the long-term operational contract or contractual 
mechanism. We had a workshop this Monday, which was well 
attended by at least three of the radio occultation potential 
providers, to talk about how we can have a productive 
interaction and how we can have a relationship going forward to 
support what would be a demonstration project which could 
eventually lead to a sustained operational delivery of data.
    Chairman Bridenstine. The line item that Manson Brown 
talked about, any idea of what that dollar amount might be that 
is going to be in the President's budget request?
    Dr. Volz. I would be speaking from one-half of the equation 
if I knew because I know what it takes for me to develop a 
satellite and to develop and to process the data, and that's 
what we're focusing on, what it would take for us to evaluate 
and to process the data.
    As far as what the commercial side would need as an 
investment or procurement is a part that we still have to 
explore. So I'm not sure what would be the appropriate price 
point for our vendors to make their business models close 
because obviously that's a very proprietary element.
    Chairman Bridenstine. So----
    Dr. Volz. It's an engagement we need to have to get a 
better feel for that.
    Chairman Bridenstine. Right, and I would encourage you to 
engage with those vendors.
    The great thing for the taxpayer and for the people on this 
Committee is that those commercial vendors are launching into 
space right now with clients that aren't necessarily NOAA, and 
that gives us an opportunity to share the costs so that it's 
not just the U.S. government taking on the burden but also 
transportation companies, agricultural companies, insurance 
companies, et cetera, that are interested in this kind of data. 
So the price point may be a lot less than what we anticipate, 
and you know, the idea that they're making, you know, the 
business case without the government involved is positive as 
well, which only makes it that much more interesting for us to 
be willing to reach out and purchase that data.
    I am out of time. I recognize the Ranking Member, Mr. 
Beyer, for five minutes.
    Mr. Beyer. Thank you, Mr. Chairman, very much.
    Dr. Volz, I have a culture question for you, and it's not a 
hostile question, just to warn you up front. Now, Mr. Powner 
talked about ``extremely poor schedule performance'' on one 
aspect of this. I read all Rick Atkinson's trilogy on the war 
in Europe, World War II, and Eisenhower again and again gave 
impossible timelines to his generals for invasions of North 
Africa, Sicily, Italy and Normandy. If you read Walter 
Isaacson's book on Steve Jobs, Jobs again and again gave his 
team impossible tasks.
    So the question is, does NOAA surge? Do people work nights 
and weekends? Is there a sense of urgency about these things, 
and how is that urgency modeled by the leadership? Or is it 
business as usual, people come in at 9 on Monday morning and go 
home at 5 on Friday afternoon?
    Dr. Volz. So starting with the ending of what you just 
stated, I've not seen a more dedicated team working on any 
program that I've seen on GOES-R and JPSS, and that's 
independent of whether they're NASA, NOAA, Lockheed Martin, 
Ball Aerospace, any of our vendors. So there's no sense of 
casual execution of the program. There's a strong dedication to 
the mission and to the time and the effort they put into it, 
well beyond what I could ever expect to tell them to do.
    So your observation related to, is it a culture of setting 
unrealistic deadlines and expectations, we're very sensitive, 
I'm very sensitive to that. If you set a schedule which is 
unachievable from day one, then nobody treats it seriously. If 
I'm already behind the eight ball, then it doesn't matter if I 
work extra or not. So it is a negative impact, I think, on 
performance.
    On GOES-R, when we set up the program some time ago, we 
have standard methodologies within NASA and NOAA about cost 
confidence and schedule confidence and probability of success. 
It's called a Joint Confidence Level, JCL for cost and 
schedule, and there's usually an acceptance that you budget to 
about a 70 percent confidence which means seven out of ten 
missions will meet or exceed that and three out of ten will 
need more time or more money, or both. That's sort of the 
baseline approach, assuming that you will perform to that.
    On GOES-R, sometimes you choose a more aggressive schedule 
for a planetary mission because you have a tight window for 
launch. For the GOES-R program, we chose to proceed from our 
confirmation on first delivery on a 50 percent or thereabouts 
confidence schedule knowing it was aggressive but not 
unachievable because we understood the criticality of getting 
this measurement on orbit and because we thought we would 
challenge ourselves and we would track our performance against 
that. We never sacrificed the performance during that process 
so we didn't skip tests that we thought were important or 
necessary in order to achieve that but we tracked then the 
reserve depletion of our time. And as David Powner mentioned, 
the negative performance over about two years from mid-2013 to 
mid-2015 were strong. We were not meeting our schedule but we 
were still meeting the earliest schedule we could achieve.
    Mr. Beyer. Let me try to fit one more question in here too, 
Dr. Volz.
    So Mr. Powner, the GAO had made 11 recommendations 
regarding JPSS, and NOAA's only implemented two of them, and 12 
recommendations regarding GOES-R, and NOAA's implemented four 
of those. Can you explain the gap between the recommendations 
made by GAO and the ability to respond?
    Mr. Powner. Yeah, a lot of those recommendations are to 
address the gap. It's on the contingency planning efforts, and 
Dr. Volz and I had a good conversation about this. I think a 
lot of them are in flight. They're not fully wrapped up yet, so 
we want to see more of that done to address a lot of the gaps. 
I think the issue with this poor schedule performance and 
whether it's achievable or not, I think we need to be more open 
with our risks. So when we were here in February talking about 
missed milestones on the GOES-R program, and we didn't think 
they were going to hit that launch date of March 2016, and NOAA 
had data saying that we had poor schedule performance for two 
years. Our point is that you need to be open with your risks in 
order to hit your dates. When you're open with your risks--and 
I know this Committee's been very supportive of NOAA to ensure 
that these satellites get up there on time--we need to 
collectively work on these risks and be open with them so that 
we can all collectively address the issues that are at hand.
    Mr. Beyer. Thank you.
    And very quickly, Dr. Volz, on the life plan extension, Mr. 
Powner talked about NOAA should have disclosed that sooner, 
that that data's been around since 2005, it almost, if I were a 
skeptical person, I think we'd extended the lifespan in order 
to make sure that we don't look like there's a gap. Can you 
explain this?
    Dr. Volz. Well, the particular study that Mr. Powner 
mentioned was a study from 2005 of whether we could expect the 
instruments would last longer than the contractual lifetime. 
But that's only a piece of the puzzle that we use when we 
calculate or we estimate the projected future life of a 
mission.
    And one of the other pieces, which really required the 
expenditure of time, was with the GOES-NOP is to see how those 
satellites operate on orbit. This was the first flight of the 
Boeing 601 bus in a geostationary operation like we had for 
GOES-NOP. We need to see when we have satellite or a new 
capability on orbit time on orbit to see how it's going to 
operate, what its performance is going to be, are we going to 
see life-limiting features start to develop. So it took many 
years, years of watching those satellites to operate from 2006, 
2008 and 2009 when they were launched to develop a confidence 
in the family of satellite buses so that we could then say all 
right, now I'm comfortable saying the projection life will be 
longer than it is, and that's where we came to about at this 
time last year.
    Mr. Beyer. Thank you, Mr. Chairman.
    Chairman Bridenstine. I'll recognize the gentleman from 
Georgia, the Chairman of the Oversight Committee, Mr. 
Loudermilk, for five minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    I want to continue on with the line of questioning that my 
good friend, Mr. Beyer, brought up. Mr. Powner, you brought up 
the slides and the charts indicating the lifecycle, the launch 
dates, and now we're extending the lifespan and the useful life 
of both satellite programs. It's been extended by three years.
    And Dr. Volz, you just mentioned that there was other data 
that was considered beyond just the 2005 documents that was 
provided to this Committee. One question: Why was only the 2005 
document provided to this Committee when we requested data to 
back up why you're extending the lifespan of these satellites?
    Dr. Volz. Well, actually, sir, in the submission, in 
response to the letter we received, we submitted that study but 
also an analysis and explanation of how we did use the on-orbit 
performance validation of these instruments over time and the 
satellites over time as one of the rationales for extension, 
and also what we also provide on a regular basis are monthly 
status reports on all of our satellites, and we provided a 
couple of examples of the status of every subsystem of the 
spacecraft that we do on a routine basis.
    So while we haven't provided that, and it's a good point 
that Mr. Powner made, we haven't provided a regular routine 
mechanism or what the health is of all our satellites, and one 
of the observations I had to my team is that we should be doing 
that, so on an annual basis at least providing an update of the 
health of our constellations overall so we don't have a ten 
year cycle for updating lifetimes and we talk about it on a 
regular basis as part of our annual reporting.
    Mr. Loudermilk. So are the studies that you're referencing 
as extensive as what was done in 2005?
    Dr. Volz. No, the study in 2005 was a specific request to 
ITT, the instrument vendor who build the sounder/imager for the 
GOES-NOP series and the previous ones as well. The study was 
specifically directed to say although the instrument was 
designed for a particular lifetime, what does the vendor think 
the likelihood of that instrument lasting past, well past that 
lifetime. So we really had to go to the vendor who built it, 
who knew all the parts to say exactly what do you think 
analytically pre-launch these things are likely to see. So 
that's one piece of it. It's a very specific analysis.
    The analysis I mentioned from our operations team looks at 
all of the operating performance of a series of satellites and 
watches each of those from a day-to-day, month-to-month basis 
and then from that develops a statistical understanding of the 
likelihood of continued operation of features that may show up 
in initial wear factors in the spacecraft that we need to 
understand as they age on orbit.
    Mr. Loudermilk. So----
    Dr. Volz. It's different kinds of studies.
    Mr. Loudermilk. The information you provided the Committee 
said that increasing lifespan of the satellite by three years 
is plausible. Is that----
    Dr. Volz. I think that's a reasonable way to put it, yes, 
sir.
    Mr. Loudermilk. Well, the definition of plausible has 
actually three definitions: possibly true, believable or 
realistic. Which one of those is it, possibly true, believable, 
or realistic?
    Dr. Volz. I'm not sure they're all mutually exclusive. I 
would say it's a realistic assessment based on the knowledge 
that they are likely to survive through this period.
    Mr. Loudermilk. Okay. So with that, by expanding it by 
three years, are we increasing the likelihood that we could 
have a data gap?
    Dr. Volz. Relying on aging assets for a longer period of 
time is a riskier approach than I would like to take for sure, 
sir. I would prefer to have GOES-R up there in March of 2016 as 
opposed to October of 2016.
    Mr. Loudermilk. We want it to be a GOES-R, not a ghost.
    Dr. Volz. Yes, but I would also want it to be a GOES-R 
that's functioning and capable and tested out and not GOES-R 
that is rushed so that it may have failures or it may have 
shortcomings or testing incompleteness that we had to do in 
order to get it to launch.
    Mr. Loudermilk. I fully concur.
    Mr. Powner, would you like to weigh in on the feasibility? 
Are we increasing the possibility of a data gap?
    Mr. Powner. Well, clearly, there's the gap on the GOES 
constellation, the geostationary constellation. The potential 
for a gap in backup capability is--you can see it from the 
chart there. There's a likelihood that we're going to have that 
situation. I think the key with the extension of these 
lifespans, NOAA needs to have a very clear policy on how they 
evaluate these constellations. I know we start with design 
lives and then we evaluate the reliability and availability of 
the constellation through detailed analysis. On JPSS, they do a 
very good job, okay. We have an annual update. On GOES, we 
don't see it. So I think there ought to be some consistency 
here because when you start moving these lifespans, it really 
affects the timing of when we build and launch these future 
satellites, and we all know these two programs consume a large 
part of NOAA's budget. Maybe you could slow those down in out 
years and budget could be used for other things. I'm not saying 
that these aren't important; they are. But there's implications 
to moving these lifespans out. You can't just move them out and 
say build them as quick as we have with the original plan.
    Mr. Loudermilk. Mr. Chairman, I see my time is up. I just 
would like to add that, you know, fiscal responsibility, 
efficiency, taking care of taxpayer money is very important, 
but we're talking about an issue that can deal with the safety 
and the lives of others. So I yield.
    Chairman Bridenstine. I'd like to thank the Chairman.
    For Dr. Volz, we understand you've been doing this job now 
for just over a year. These challenges have been developing 
over time, and we know you're working really hard to make sure 
that these issues are addressed. From our perspective, I'll 
just be real quick before I hand it over to Mr. Bera, from our 
perspective, we learn that there's going to be a delay in 
launch for GOES-R, and at the same time we learn that we're 
going to extend the life of another satellite. We're going to 
predict that it's going to last longer, and it looks like it 
could be intentional that we're just extending is to that we 
can get to the next launch, and I'm not saying that's what 
happened. I'm saying that as Mr. Powner said, if there was more 
transparency, if we knew that well ahead of time, it wouldn't 
have appeared this way. So just--I'm sharing my sentiments on 
that. So transparency helps us, and we want to help you.
    So I turn it over to my friend from California, Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, and I thank the Ranking 
Member.
    You know, when I think about weather forecasting, thinking 
about this with my district, state, and much of the American 
West in mind because we're going through a devastating drought 
right now, and it's the fourth year of historic and 
unprecedented drought. When I think about my district, you 
know, Folsom Lake, which supplies drinking water for, you know, 
close to half a million people in my region, it's a historic 
low right now. So just having the predictability of weather is 
going to be incredibly important because again, in California 
and in Sacramento, we have this dual risk. We have years where 
we have incredibly high flood risk and then obviously now we're 
living through this drought. So better forecasting allows us to 
better manage a precious asset: water.
    And you know, that's why I share the concern of my 
colleagues here. If there is a gap in that ability, that does 
put us at risk, it puts the Nation at risk and, you know, it 
really does make it difficult to manage.
    I'm going to shift a little bit. If in fact there is a gap, 
we know there's commercial weather satellites out there that 
are providing commercial data. Is that true, Dr. Volz?
    Dr. Volz. I don't know if any commercial assets that are 
providing equivalent data and observations to the nature of 
what we provide that support our weather services. So there may 
be specific measurements that might be available, but in 
general, there are no commercial assets of equivalent or 
capable nature.
    Mr. Bera. So there's no commercial backup that would be 
available.
    NOAA's data that comes from GOES and the other satellites, 
that's publicly available to anyone who wants it, or is that 
still----
    Dr. Volz. Correct.
    Mr. Bera. So it's a public asset?
    Dr. Volz. Correct, sir.
    Mr. Bera. That's available to anyone around the world?
    Dr. Volz. Correct, just as other nations' assets and 
measurements are available and to others as well. It's a global 
cooperation and sharing agreement on the observations for 
weather and climate.
    Mr. Bera. And you'd consider that really would be a 
critical public asset for the common good?
    Dr. Volz. Yes, sir, entirely so.
    Mr. Bera. If we think about commercialization then, and 
this data--so if we were to shift from, you know, a public 
expenditure for the common good to more commercialization of 
this data, is there a risk that, k, that's no longer available, 
you folks have to pay, subscribe et cetera? Is that going to--
--
    Dr. Volz. There is a perception. The approach that NOAA 
has, that we have, is that weather services that we provide, 
for the observations that feed those are a public good and are 
necessary for health, safety and security for the Nation and 
for our citizens, so the idea of commercial available data sets 
are not necessarily at odds with public services provided by 
NOAA if we can find the right terms and conditions for which to 
work with the commercial side to use their data in our models, 
in our operations.
    Now, data which is restricted, which are only available to 
individuals, are not something that would be consistent with 
that approach. It's not something we would support. It doesn't 
mean commercial vendors can't make observations and sell it any 
way they want. That's fine. That's certainly open to anybody.
    Mr. Bera. But again, from my perspective, there is some 
concern that if we're taking the taxpayer assets and then, you 
know, contracting that out to commercial vendors to replace 
some of the work that NOAA's doing, you, over time, can lose 
the ability of this public good, this common good data set, and 
I don't know if that's a concern that, you know, folks at NOAA 
have.
    Dr. Volz. That would definitely be a concern. If our 
ability to deliver on the services and the observations that 
are necessary for health and safety and for aviation safety and 
all the other operations that we do is restricted because the 
funds are diverted to a different approach, which is 
proprietary and controlled in a different way, that would be a 
negative approach that we would not support, and I don't 
support it.
    Mr. Bera. And knowing that, you know, when we look at space 
exploration, you know, there's, you know, what is ongoing both 
at NASA and, you know, what we're talking about here in NOAA, 
this public-private partnership that is emerging, if you're 
kind of forecasting where weather forecasting--a little 
oxymoron there. But if we're predicting where weather 
forecasting is going, where do you see this commercial public-
private partnership in the near future?
    Dr. Volz. Well, similar to what you referenced on the NASA 
side, there are features, there are capabilities that we 
already rely on heavily on the commercial side to provide. For 
the most part, we don't build our own launch vehicles. 
Commercial does that. For the most part, we don't build our own 
spacecraft. We go to commercial vendors for that. All the 
instruments we buy are from commercial vendors. So there's an 
extensive public-private engagement in the execution of our 
weather services. What we're talking about is the potential 
next step, which is to secure data as opposed to capabilities 
that we deploy, and I think there is an opportunity for us to 
do that in a way which doesn't sacrifice those public goods 
that I mentioned a few moments ago. So I think as the 
commercial sector becomes more capable and is able to deliver a 
more quality product, a data product, I think there's certainly 
a possibility for strong engagement that can fit within our 
business model and can support our commercial sector better.
    Mr. Bera. Great. Thank you.
    I'll yield back.
    Chairman Bridenstine. I recognize the gentleman from Ohio, 
Mr. Johnson, for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and gentlemen, thank 
you for being here with us this morning.
    Dr. Volz, how many of the viable U.S. commercial providers 
for satellite data do you intend to bring under contract in the 
next three to five years?
    Dr. Volz. That's a very open-ended question. It depends on 
resources, it depends on how many actually apply if we go out 
with an RFP or a----
    Mr. Johnson. How many do you need to bring under? How many 
do you want to bring under?
    Dr. Volz. I'm more concerned with getting a data flow, to 
getting the operational data I need. If we go through with an 
approach, a pilot approach, and we find one vendor that has the 
quality set of information that we need, that we can use, that 
meets our criteria, that is financially viable, that's a 
satisfactory result for me. If I get three to four competing 
and they're all providing something that I can afford to 
support several, because I need the data from several, I can 
support that as well subject to availability of funds and the 
cost points on these vendors.
    Mr. Johnson. Okay. Has NOAA done a cost-benefit analysis of 
gap mitigation alternatives to determine which ones are likely 
to be the most effective and worthy of investment?
    Dr. Volz. When we went through the gap analysis and the 
exercises in 2011, 2012 and 2013, we had a report called the 
Riverside Report, which I imagine you've already read, which 
identified a number of mitigation approaches to lessen the 
impact of loss of a major asset. We selected a number of those 
to complete. We have been executing on those mitigation 
approaches. We did not do an allocation of ``1'' through ``N'' 
to say which is the most effective and least effective but we 
saw they applied to different areas of our observing system and 
we applied the ones that were possible to impact, to effect, 
and we have been working on those.
    Mr. Johnson. Why do you not see the need to do the 
mitigation to look at the most effective?
    Dr. Volz. I would say that we did that in, I wouldn't say 
ad hoc, but in a best-effort approach. It's hard to do an 
assessment of a particular measurement and what's the benefit 
of that to an integrated global model which relies on multiple 
inputs to say. So I would say probably the difficulty of doing 
a cost-benefit analysis when the output is the value of a 
weather product which, you know, three to five, three to seven 
day forecasts, it's very hard to quantify the value of that 
from a cost approach. We do look at the efficacy of those 
approaches: is it a necessary part to address a particular 
measurement capability, and we did prioritize. We put our 
effort and our attempts into working on those more importantly.
    Mr. Johnson. Sure. As a general aviation pilot myself, I 
can tell you that the accuracy of that data and the ability to 
look out and get those accurate forecasts both near term and 
long term are important.
    Have any studies been performed on the cost, benefits and 
tradeoffs between different potential launch dates for the 
later satellites such as GOES-U or for JPSS, JPSS-3?
    Dr. Volz. Yes, sir, and that points to the excellent point 
that Mr. Powner brought up is that what we can do in the latter 
years once we get to a robust state, which is accomplished by 
getting GOES-R and GOES-S launched. Do we have to launch GOES-T 
and U on a rapid time frame? And the answer is probably not. We 
would launch on need at some point when we get to that.
    So we've looked at--there are two comparisons here. One is 
the cost of storage if we build and then store, and the other 
is, the cost impacts of delaying the development, and we have 
done the assessments, and based on industry assessments and 
industry models of the efficiency of building four in a rapid 
sequence is more effective in terms of buying the parts and 
getting the workforce engaged and buying down the risk of the 
implementation than building one, waiting a few years, building 
a second, and building a third. So we actually have seen the 
examples from aerospace and from other industry examples of the 
efficiency of building first, launch later if necessary has a 
certain cost benefit from the build and development cycle and a 
significant risk benefit because you buy down the risk by 
building them all at the same time when you have the parts and 
the availability and the engineering.
    Mr. Johnson. Okay. All right.
    Earlier this year, your office hosted a community 
engagement workshop to inform outside groups and the commercial 
sector of progress NOAA has made through incorporating 
commercial technologies, and this week you hosted another such 
event. What updates occurred between the previous workshop held 
in April and the one this week? What did you learn?
    Dr. Volz. In the April workshop, we talked mostly about 
principles, about the engagement desires, what we would like to 
do going into the future. In the workshop we had just this 
week, we spent a great deal of time talking about the actual 
process by which we would use data, how data are used from 
observation to services and products so that we were very 
clear, very articulate in trying to explain--well, discern how 
articulate it was, depending on the feedback--to explain how 
the data are used in our systems and how different vendors can 
tailor their business models to deliver data to us at different 
places in our value chain.
    Mr. Johnson. Okay. Are you talking to individual companies 
as well to get a broader perspective?
    Dr. Volz. We have gone out with RFIs asking for inputs on 
particular measurement types. We've gone out with RFIs recently 
just in August about technology, next-generation technology 
approaches that they think are worthy of investment or are 
ready for application, ready for prime time as operational. In 
terms of the overall engagement, we have talked on a one-on-one 
basis, I have not, but some of my staff has, on where they--
keeping us informed on where they are in the development cycle 
and where we are in our process cycle. In general, I'm trying 
to talk to them all at once so we have these workshops on a 
regular basis so they all see, everybody can see where we are 
as we move forward.
    Mr. Johnson. Okay. All right.
    Mr. Chairman, yield back.
    Chairman Bridenstine. I now recognize the weather guru from 
California, Mr. Perlmutter, but I would warn the witnesses that 
his----
    Mr. Perlmutter. Colorado. Colorado.
    Chairman Bridenstine. Colorado.
    Mr. Perlmutter. Colorado.
    Chairman Bridenstine. From Colorado. I would warn the 
witnesses that his jacket is off and his sleeves are rolled up.
    Mr. Perlmutter. Thank you, Mr. Chairman, and thanks for 
holding this Committee hearing, and to you two gentlemen, thank 
you for being here again. These are very important assets of 
the United States, as Mr. Loudermilk said, you know, dealing 
with life, limb and property as well as science, and, you know, 
I think I mentioned the last time you were here, I've been 
working on this since 2009 and 2010 with NPOESS, and what I'd 
like to do is just sort of go back to basics and understand the 
structure, the decision-making structure here.
    So I come from a construction family, and with respect to 
JPSS and the GOES systems, am I correct when I look at it as 
NOAA is the owner, NASA is sort of the general contractor, and 
then the private companies, the Lockheed's, the Ball's, the 
Orbital ATK's are in effect the subcontractors? Is that a fair 
way to describe this? And this is to both of you. So Dr. Volz?
    Dr. Volz. Yes, except that I'd add a nuance there. Yes, 
NOAA is the owner but NOAA's also the architect. So the 
architect doesn't just give the plans and walk away. The 
architect is there with the general contractor and is there 
when the general contractor sometimes is talking to his 
subcontractors to make sure that what he had in mind in the 
architecture is what is actually being implemented. So that's 
the role NOAA plays. We do not have the engineering depth that 
NASA does and we rely on that depth, but we are there with the 
requirements, with the user community interfaces so that we 
know what the end use is of every one of these observations, 
which allows us then to work hand in glove with NASA and with 
the major contractors to make sure that end use is remembered, 
is kept in mind as you go through the whole development 
process.
    Mr. Perlmutter. Mr. Powner?
    Mr. Powner. Yeah, and I would just add that the contracting 
situation with the spacecraft, each sensor and the ground 
component, they all have prime contractors with subs. So you 
have many contractors and subcontractors involved with each of 
those many components.
    Mr. Perlmutter. Well, the reason I'm asking that question 
is because whether it was NPOESS or now GOES and JPSS, there is 
a little separation between NOAA as the owner/architect, if you 
will, and the general contractor, NASA. Before it was NOAA and 
the Air Force. And we've had--I mean, obviously we wouldn't be 
here if we weren't having some delays and some hiccups in how 
these things are proceeding, and sometimes I feel like NOAA, 
you know, gets hammered when in fact it's really been either 
the Air Force or NASA that has caused some of the hiccups, and 
they're not sitting here today. Am I mistaken in that at all?
    Dr. Volz. We can go too far with the analogy between NPOESS 
and where we are now. I believe in the NPOESS days, there was a 
greater separation between the different owners and executors 
of the program, which led to some of the disconnect, some of 
the problems. The requirements flow-down into the 
implementation was much more complex under NPOESS than it is 
now.
    I believe now with the NASA-NOAA relationship and the NASA-
NOAA contractor relationship that we have on JPSS and on GOES-
R, we have a much better connectivity across that line. There 
are leads and follows but it's much better than it has been in 
the past.
    Mr. Perlmutter. Well, let me tell you where I'm going with 
this because I'll run out of time.
    You know, as a Coloradan, we were disappointed when Ball 
didn't get the follow-ons in the JPSS program. NASA was the 
acquisition point person or point agency, and obviously the 
contractor there. What I'm concerned about is just as Mr. 
Powner was saying, you know, the Navy has a very good system of 
building submarines. You know, they really do have an assembly-
line approach. And given the fact that we've had these delays, 
Dr. Volz, more to you but also to Mr. Powner, I mean, shouldn't 
we be trying to do something like that with these satellites so 
that you can get them done in a way that's timely, that's well 
tested? Am I making a mistake here?
    Dr. Volz. No, I think you have a perfect example between 
GOES-R and JPSS in that if you're building a series, a fleet, 
it does make sense to define the requirements once and do the 
implementation once, and that's where we are right now. That's 
how we set it up with the program with the GOES program. You 
still have problems, and we're talking about. That's why we're 
here because of the issues in the development of the GOES-R 
program but we hope that we'll work through those and overcome 
them. With the JPSS, the Suomi NPP JPSS program, we did not 
have that same construct. We were building them one at a time 
and there are definitely significant inefficiencies in doing it 
that way whether it's an intentional change in a major 
subcontract like the spacecraft from Ball Aerospace or Orbital 
ATK or it's an unintentional change because the work--the 
production lines have changed and the capabilities, the 
subcontractors change out and you can't control it. So by going 
with the one-at-a-time approach, you definitely are setting 
yourselves up for a more risky approach, which is one of the 
reasons the PFO, the follow-on to JPSS, is intended to be buy 
both at once, eliminate those risks of coming with multiple 
serial buys so that you do minimize the risk of implementation. 
And I'll let David answer too.
    Mr. Powner. We've had a lot of risks and delays on both 
these programs. I don't know why you'd add more risk with the--
that was our point on J-2, and especially when we sat down on 
GOES and the delays and we said okay, well, what's going to be 
different with your schedule performance, and they said well, 
we learned a lot, okay, in the second one we're going to be a 
lot better at it. Well, don't you--that logic probably applies 
to J-2. There's a lot of issues on J-1, work-arounds with 
subcontractors and the whole bit, and Ball Aerospace can lay 
out all those things. A new contractor doesn't have all that 
history going forward so we think there is risk with that 
shift, and we're looking for more continuity where we kind of 
get an assembly line here.
    Mr. Perlmutter. All right. Thank you.
    Thank you, Mr. Chair.
    Chairman Bridenstine. I'd like to thank the gentleman from 
Colorado.
    I recognize the gentleman from Texas, Mr. Babin.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman, and thank you 
to our witnesses.
    Dr. Volz, if the government has weather or climate missions 
that you could catch a ride on a commercial satellite to the 
benefit of all parties, it would seem to me to be a cost-
effective and sustainable option. Has NOAA taken advantage of 
these hosted payload options for weather or climate missions? 
If so, why or why not?
    Dr. Volz. You're correct. If we can find a ride,and that 
meets our requirements, it's an appropriate and potentially 
more efficient way to do it. We are suggesting and proposing 
that approach for our search-and-rescue and A-DCS systems--it's 
called CDARS which would use the Air Force's hosted payload 
solutions approach for buying space, spare space on commercial 
launch vehicles, or commercial spacecraft, not just launch 
vehicles, yes.
    Mr. Babin. Sure. Okay. Thank you.
    And again, since the President's fiscal year 2016 budget 
request transfers responsibility for developing climate 
instruments and climate satellites from NOAA to NASA, will NOAA 
funds that were meant to pay for such instruments and 
satellites stay within NOAA for use in gap mitigation efforts 
or will they be transferred to NASA to offset the cost of their 
development? And what effect would such development have on 
NASA's budget? Please provide the Committee with a funding 
breakout of how this arrangement would look.
    Dr. Volz. So I'll be happy to provide you with a follow-up 
on the funding breakout.
    From looking at the transition of the couple of 
measurements from NOAA to NASA,there were no funds transferred 
from NOAA to NASA, there were no funds allocated. We were 
underfunded to execute those activities on the NOAA side. It 
was a prioritization question. And the concern was, they would 
have been left off the table entirely because they weren't 
funded from the NOAA side. It wasn't that we had funds that we 
should then move over to cover it somewhere else. So it was 
both a question of focus and let NASA do the climate but also 
an inability on our side to support those programs because we 
had to support the primary weather mission that was our focus.
    Mr. Babin. Okay. Then Mr. Powner, you seem to have major 
concerns about NOAA's transparency and openness with Congress. 
What are the key issues that drive your concerns here?
    Mr. Powner. So we had a hearing in February on these two 
programs, and then what happened was, the lifespan extension 
occurred in April. The fly-out charts changed in April. And we 
think if a major change occurs like that, this Committee should 
have been informed. That's one example.
    Mr. Babin. Okay.
    Mr. Powner. Another example is, I think the schedule 
performance could have been disclosed much more directly and 
openly to this Committee when we had that hearing in February.
    Mr. Babin. Absolutely.
    Mr. Volz, would you like to comment on that?
    Dr. Volz. Sure. On the first one, the fly-out chart change, 
that's on me. As I came in from NASA, I remember looking at the 
fly-out charts over the years and trying to understand, you 
know, what the logic was in those, and I brought in with my 
experience there are different analyses, different approaches 
to assessing the extended life since I've done that for many 
years at NASA that would be applicable, I thought, to these 
systems and these programs, and that's what I asked for. It was 
my error not knowing how sensitive it was, how important it was 
that we communicate those. So we will, as I said, we will make 
that a regular thing in the future.
    On the other question, which I'm drawing a blank--what was 
the second one?
    Mr. Babin. Schedule performance.
    Dr. Volz. On the schedule performance, that's a fair point, 
and to the degree that we're not communicating well, 
quantifying the risks that we see in the execution of these 
programs, I think we need to do a better job of that. We work 
regularly with your staffers, with the Committee, with our 
quarterly briefings, and to the degree that those are not 
communicating appropriately, I'm happy to find a better way to 
do that, to improve that communication.
    Mr. Babin. Okay. And once again, Mr. Powner, one of NOAA's 
challenges is that it needs to obtain more and better weather 
data with less money. One way to do that is to buy data from 
the commercial sector instead of trying to launch satellites by 
themselves, but NOAA satellite division, NESDIS, has also been 
delegated the authority granted by Congress to the Secretary of 
Commerce to regulate these new commercial providers, and 
they're having trouble granting licenses on a timely basis. 
Isn't it a conflict of interest for a bureaucracy to regulate 
the industry that is competing with its traditional satellite 
programs, and should the authority to regulate and promote this 
new innovative and money-saving industry be moved to the Office 
of the Under Secretary for Oceans and Atmosphere instead of 
being buried inside NESDIS?
    Mr. Powner. Yes, that's--in terms of where that should 
reside, I think the key point here is this: We need robust 
constellations for both GOES and JPSS. We're always going to 
have NOAA own and operate these big satellite programs. That's 
not going to go away. But we need to supplement these 
constellations with commercial data to ensure that we have a 
robust constellation. So I think where everyone wants to go 
with the use of commercial products and the like, we need to 
look strongly at that to build the most robust constellation. 
That's what's most important for the American taxpayer in this 
country.
    Mr. Babin. Absolutely. Okay.
    Thank you, and I yield back, Mr. Chairman.
    Chairman Bridenstine. The gentleman yields back.
    I now recognize the gentleman from Florida, Mr. Posey, for 
five minutes.
    Mr. Posey. Thank you, Mr. Chairman.
    Dr. Volz, in your opinion, how likely is GOES to meet its 
launch date of October of 2016?
    Dr. Volz. I think our current performance and the scheduled 
execution is strong. We definitely have margin against our 
August delivery date to the launch site. The poor performance 
that was mentioned by Mr. Powner in the two years leading up to 
the thermal vacuum test in July and August is real, and 
following then, when we reestablished this schedule for an 
October launch date, we provided a new schedule approach for 
Lockheed Martin and for NASA and for NOAA to work together. 
Since then, since the September, October, November period, as 
opposed to 10 days a month of reserve being used up, they are 
ahead of schedule. So the way that we have rephrased the 
schedule and reframed it with reserve appropriately has been 
working, and the program is working on schedule since that time 
in the face of problems and issues like we typically see during 
integration and tests. So I'm reasonably confident that we will 
meet the October launch date.
    Mr. Posey. Okay. Thank you.
    Mr. Powner, do you see that the same way?
    Mr. Powner. Well, we are aware of, there's some failed 
transistor parts that affect battery operation and the whole 
like. I think that's been a key risk going forward that we have 
heard that that October launch date possibly could be at risk. 
That's a key issue. I don't know where we're at on that right 
now but that's something that we're watching. We're still 
cautiously optimistic on these launch dates going forward 
because we've heard indicators that there's still some risk to 
the October 2016 date.
    Mr. Posey. Okay. Well, you partially answered my next 
question for Dr. Volz, and that is, what do you see as the 
biggest factors that could cost another launch delay?
    Dr. Volz. We still have some mechanical and environmental 
testing ahead of us, and the likely factors on the GOES-R 
spacecraft since it has been integrated and the particular 
transistor failure in the power-regulating unit has been 
corrected and the pieces are back in integration, is the nature 
of similar things like that happening that could be a bigger 
problem that takes time to resolve--a parts problem, a 
mechanical problem during tests. Those are still ahead of us, 
so until we get through the mechanical testing, the vibration 
testing, acoustic testing, those are major tests that we still 
have to complete. The ground system is solid. The radar--the 
antennas are completed and ready for receipt. The user 
community is prepared. It's getting the spacecraft through the 
last 8 months of environmental testing to launch which is 
always a challenge but that I see as a systemic challenge that 
we have for the program right now.
    Mr. Posey. Okay. Thank you.
    What are some of the potential impacts of a delay of GOES-R 
launch? You know, will it increase the lifecycle cost?
    Dr. Volz. It will not increase the lifecycle--well, it 
depends on the type. If we have a major issue, you know, within 
the expected range of delay here or there or the operations 
that we have to do to execute, we are operating within the 
lifecycle cost budget, within the annual budgets, so I do not 
expect that based on what we see now that we need additional 
funding for the GOES-R program.
    Mr. Posey. Okay. What is the current estimated time during 
which GOES constellation will not have a backup satellite 
available?
    Dr. Volz. That's a good segue-I don't predict that we will 
have any point that we won't have a backup satellite available 
based on our estimation of the current life expectancy of these 
satellites. However, we are all only one failure away from 
losing a satellite. That can always happen. So between now and 
the launch of GOES-R, our estimation is the satellites we have 
on orbit are functioning, aging and healthy, as I said in my 
introduction, and I do not expect that we will have a gap. 
However, if we do, if we lose one of our assets, we do have a 
backup in space, and if we lose that, if we're reduced to two 
satellites, we have anticipated this possibility and worked 
cooperative relationships with our international partners so 
that they could loan us a satellite in the dire circumstances 
that we have two major system failures.
    Mr. Posey. And I was going to ask, has this ever happened 
in the past?
    Dr. Volz. It has in the past occurred that we have worked 
this with EU MET SAT in the past to borrow some assets from our 
foreign partners and we've contributed assets in the same as 
the global constellation of geostationary satellites have 
needed the partnership sharing arrangement that we've had, and 
it's been successful and it has been exercised two or three 
times in the past.
    Mr. Posey. We had a hearing earlier and had testimony about 
the sunburst that crossed our orbit last year that we missed by 
about one week that would have virtually, some experts say, 
knocked out every single commercial satellite. How would that 
have affected yours?
    Dr. Volz. I don't know the magnitude of that particular 
solar event that might have hit us. Our satellites are hardened 
for what we understand what the normal environment is, normal 
meaning some deviation from the normal environment. A major 
solar storm would have an impact on all of our satellites. And 
``major'' is hard to determine exactly what it is. But we are 
as vulnerable as some other satellites to major solar flare 
events, and we do what we can to harden it. We may be more 
hardened than some of the commercial ones but it's still the 
event--a significant event would have an impact on us.
    Mr. Posey. Mr. Powner, do you want to comment?
    Mr. Powner. I have nothing further to add on that.
    Mr. Posey. Yeah, and I'm concerned about, you know, what we 
do to harden these, you know, how much they can be hardened, if 
there's any cost that's prohibitive in doing that. I just don't 
think that Congress quite frankly or the public communications 
industry has taken that serious enough. We had experts come in 
here and tell us basically it would change the world as we've 
known it. They say the impact would be in the trillions, and 
they talked multiple trillions because they wouldn't even dare 
attempt to quantify it. But we seem to be doing so little about 
hardening these for the solar eruption is what they called it 
or EMPs. They just dismiss that as well, before somebody'd use 
an EMP against us, there'd have to be bigger problems, which is 
not true, and so is there a plan that contains NOAA's ongoing 
strategies to mitigate a satellite data gap?
    Dr. Volz. Yes, sir, there is, and it's been exercised for 
the last several years of our program, and that is the point of 
getting JPSS-1 and 2 and the PFO under contract to get to a 
situation, and directly to your point, where we have a spare, a 
hot spare on orbit for our polar and geostationary satellites, 
and in the event of a significant event, we're thinking about a 
meteorite but it could be a solar flare, we can redeploy an 
equivalently capable asset within a year. That's the objective, 
and that's one way, rather than trying to harden a satellite 
against an unknown size of event is to have a replacement 
satellite that is readily available, and when you look at the 
GOES-T and U available, we won't necessarily launch those to 
have them sit in orbit. We could have them sitting on the 
ground for deployment in the case of an event like that as a 
replenishment when we have a failure.
    So our programs do support getting to a robust state but 
we're not there yet.
    Mr. Posey. That's a great plan, but if we had an impact, 
the consequence of the one the scientists told us last year, 
it's very possible that there would not be an electronic grid 
to enable you to send up the replacement within a year.
    Dr. Volz. Fair enough. The magnitude of the event is--there 
are events of a size that we can't model for or plan for, but 
we are planning for the loss of satellite assets over something 
that may only affect the satellites and not the whole ground 
infrastructure.
    Mr. Posey. Okay. Mr. Chairman, I thank you for your 
indulgence. I yield back.
    Chairman Bridenstine. Mr. Powner, would you like to 
address-- I saw you maybe indicating you had a comment when he 
mentioned that the GOES-R delay could have an impact on 
lifecycle costs. Did you want to say something about that?
    Mr. Powner. Yeah. Well, lifecycle costs--so there are 
reserves, okay, and you have an overall lifecycle. Any delay, 
there's going to be an impact on cost. I mean, this last delay, 
there was an impact on cost. So I just want to be clear on 
that. Any delay that we further have, there will be an impact 
on cost and there will be an impact on the potential increase 
and the potential gap in backup capability.
    Chairman Bridenstine. That's important for those of us on 
this Committee to understand.
    I now recognize the gentleman from Alabama, Mr. Palmer, for 
five minutes.
    Mr. Palmer. Thank you, Mr. Chairman. I'd like to thank the 
witnesses.
    Mr. Powner, you mentioned that NOAA needs a clear policy on 
what analysis should drive the adjustment of satellite 
lifespans. Can you expand on that and----
    Mr. Powner. So some background here. If you look at like 
what DOD does, they actually have very robust analysis on the 
availability and reliability of their operational satellites. 
To NOAA's credit, on JPSS, they do a pretty nice job on JPSS. 
They do an annual assessment on that availability and 
reliability. We don't see it on GOES. But even too, they just 
need to be real clear on what their policy is on how they 
determine the lifespan. So for instance, I've been doing this a 
long time, looking at NPOESS for this Committee even prior to 
some of the dates that Congressman Perlmutter made. Our 
understanding is that the GOES policies, you have a backup on 
orbit. On the polar constellation, we always thought the policy 
was, you have a backup on the ground but now I'm hearing a 
backup in orbit. We just need to be clear on what our policy is 
on ensuring a robust constellation, and it's--NOAA is not 
always clear. They're not always clear, and we need to get that 
clarity so that we have a robust constellation.
    Mr. Palmer. Let me ask you this. How can NOAA determine 
that appropriate progress has been made on implementing gap 
mitigation activities, Mr. Powner?
    Mr. Powner. Well, you know, we looked at this with our last 
review when we testified in February. There's a lot of good 
work on mitigation activities, and I do think there are some 
mitigating factors that yield greater benefits. We've heard 
like aircraft observations, some of the adjustments to the 
models and the like, and NOAA's working on those things. So a 
lot of that's being worked on now, and that goes back to some 
of the comments and questions earlier on our recommendations. 
We want to see some of those mitigation activities rounded out 
even further so that if in fact we have gaps leading up to 
March 2017, that we have some of these backup capabilities.
    Mr. Palmer. In that regard, and Dr. Volz, you may want to 
comment on this, go back to Mr. Posey's question right there at 
the end about having--whether you've got a satellite, a backup 
system already in orbit or if you've got backup systems on the 
ground, do you have backup launch capabilities? Because if you 
do have a massive solar event or some other EMP-type event, 
would you have the capability to launch more satellites?
    Dr. Volz. We rely on the launch services provided through 
the national assets, the same launch service that support--the 
defense department, NASA, NOAA. We all use the same commercial 
launch providers. In the event of a catastrophic loss of a 
significant asset, we also have the capability and to 
prioritize our mission over others, I believe, so I think if 
that were----
    Mr. Palmer. What I'm asking is, and you may not be able to 
answer this if you're relying on other agencies, other parts of 
the government for the launch capability, but it's not just 
losing the asset in space, it's--if you had a catastrophic 
event like an EMP where your ground systems are eliminated, do 
you have backup systems or--you may not be able to answer 
this--are there backup systems that could launch, that have 
been hardened, that we could get in place to get something back 
in orbit?
    Dr. Volz. And I'm not the right person to ask what the 
backup capabilities are for the launch.
    Mr. Palmer. All right, Mr. Powner, I'm going to go back to 
you. For JPSS, your report from earlier this year focused on a 
potential gap in the 2015-2017 time frame. Are there similar 
concerns about a gap between the first and second JPSS 
satellites in the early 2020s?
    Mr. Powner. The first and second--we have not--we're not 
concerned about a gap between the first and second, assuming we 
hit the March date and JPSS-2 stays on board. The issue with 
the gap between NPP and J-1, you know, if you didn't have this 
recent four-year extension on the lifespan, there would be a 
gap. So, you know, the key here is, we hope that NPP continues 
to function well and we hope that J-1 does launch on March 2017 
so that we don't have a gap between NPP and J-1. That's still a 
concern of ours. That's still a concern. Until we launch J-1, 
we're concerned about a gap.
    Dr. Volz. And if I may, sir, I have almost the exact 
opposite assessment. Based on watching the Suomi NPP instrument 
and mission fly over the past four years, based on our analysis 
and our understanding and mitigation steps we've taken in 
execution of those operations, I have a stronger confidence now 
that the satellite, barring a meteorite or some other activity, 
is likely to function for a great many years because I've seen 
these satellites do that over time. I think the uncertainty in 
launch of--the gap between J-1 and J-2 is because we haven't 
launched J-1 yet is a larger probability of something I'm more 
concerned about going forward.
    But we're talking about probabilities and risks, and we 
have to address all of these. So I don't think that once J-1 is 
launched that our risk of a gap has necessarily gone away. We 
still have to worry about getting J-2 developed and delivered 
on orbit as quickly as we can.
    Mr. Powner. One thing if I could add, I do think NPP 
overall is functioning well. It's not perfect. You can read 
their own availability analysis, and there's questions about 
ATMS lasting beyond the five-year life, not a nine-year life. 
So there's watch items there, and we need to continue to watch 
that so I don't want--there's not--we need to be real clear 
that there still are risks with NPP.
    Mr. Palmer. Mr. Chairman, I see my time is expired.
    Chairman Bridenstine. I thank the gentleman from Alabama.
    We're going to go into a second round of questions, and I 
recognize myself for five minutes.
    I wanted to share with you guys some of the challenges I 
see going forward as it relates to the commercial data buy. The 
President's budget request is due to this Congress in February. 
We'll do a budget process in March. Then we start doing-we'll 
be doing authorizations along this way and appropriations even 
before, or I should say after. What I would be interested in is 
what that number might be, and I know you probably don't have 
that number for a line item for a commercial data buy. I want 
to be clear that we're expecting that, and I'd like--if you're 
able to provide that to us even before February, it'd be very 
valuable as we go through the authorizations and the 
appropriations processes. So just, you're under no obligation 
to give us anything until the President's budget request, I 
understand that, but if you can help, we want to be helpful as 
well, so that would be good.
    On the NOAA Commercial Space Policy that came out on 
September 1st, it's been open for comments. The comment period 
closed October 1st. There have been 15 comments. Do you have a 
timeline when the final policy might be released?
    Dr. Volz. Yes, sir, and we had 15 respondents. When we 
looked through the responses, we came up with on the order of 
90 different actionable comments that we think should be 
addressed in some way or another. NOAA has set up a team and is 
working to review those and adjudicate those. I'm expecting, 
and I've been told by management within NOAA that we expect the 
revised policy to be coming out within a few weeks, within the 
coming weeks.
    Chairman Bridenstine. Oh, that's great.
    Dr. Volz. And in the meantime, we've been working the 
process. The workshop on Monday was addressing that, and we 
would like to follow up with a release of a draft process for 
comments, just like we did with the policy, within a few weeks 
after the release of the formal policy.
    Chairman Bridenstine. So after the release of the formal 
policy, there will be more comments?
    Dr. Volz. No, a draft release of the NESDIS process, which 
is the next level of detail down about execution of an 
engagement with industry.
    Chairman Bridenstine. Got it. And when you can--you said we 
can expect that a couple weeks after----
    Dr. Volz. After the release of the NOAA policy.
    Chairman Bridenstine. Fantastic. So we're talking about 
January, February?
    Dr. Volz. Yes.
    Chairman Bridenstine. Okay. Fantastic. Let's see.
    I want to go through a couple of comments, or I should say 
statements that were made regarding the space policy, and I 
want to get a reaction from you on it. One statement is that--
and I'll just read it. It says: ``In its entirety, the latest 
iteration of NOAA's policy fails to make a distinction between 
raw satellite data that would be ingested into NOAA's 
operational weather models, which is the intended focus of this 
policy, versus the output of those models and derived data 
products. It is the full, free, and open access to model 
output, derived data products and current ground conditions 
that underpins the robust U.S. commercial weather sector.'' Do 
you agree there's a difference between the output and the raw 
data, like the satellite data coming down from the satellites?
    Dr. Volz. Let me predicate this with saying I'm not an 
expert on WMO-40, which talks about the essential versus non-
essential or additional data sets, and they address mostly the 
issue of the data. There is a difference between input data and 
output products for certain, no question about that. So a 
simple answer to your question is yes, there is a difference 
between those, and I don't know that the policy was meaning to 
address the output products, the output services as they are 
free and open to all.
    Chairman Bridenstine. Okay.
    Dr. Volz. But it is focused on, from my perspective in 
using commercial data in our operations, is how we deal with 
the data that we receive from the vendors, which is the input 
data that you're referring to.
    Chairman Bridenstine. So going back to your mention of the 
WMO-40, there's another statement here. It says, ``WMO-40 
resolutions 40 and 25 explicitly permit private-sector 
companies to restrict the redistribution of their data and 
allow those same member countries flexibility and discretion in 
determining which data sets are freely exchanged and under what 
conditions they choose to do so.'' So it looks to me like under 
WMO-40, private industry that is providing data to augment the 
numerical weather models, that data should be protected. Would 
you like to make a comment on that?
    Dr. Volz. Probably not. I am not----
    Chairman Bridenstine. Probably not, you don't----
    Dr. Volz. I'm not a WMO-40 expert----
    Chairman Bridenstine. Okay.
    Dr. Volz. --so I don't know all the nuances of it. So 
certainly--so I probably should let it go at that, and we'd be 
happy to have a different, separate conversation related to 
WMO-40.
    Chairman Bridenstine. I'd like to get, you know, these kind 
of resolutions in this final space policy coming from NOAA, 
Commercial Space Policy, and I know it's going to be in a 
couple of weeks but these are the kind of things that 
absolutely must be definitely determined before--if we're going 
to have a robust commercial segment that can augment our 
numerical weather models and save money for the taxpayers, and 
that's my concern: more data, better data, and cost savings to 
the taxpayer. And I think we can do that but we've got to be 
really clear about what's required here.
    I've got about--well, I'm out of time. So I'm going to stop 
now and recognize the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    And Dr. Volz, in Mr. Powner's testimony, he talked about 
how the delivery one of the satellite's critical instruments, 
the ATMS, Advanced Technology Microwave Sounder, had been 
delayed, but in the last quarterly update that this Committee 
received, NOAA said that it had to be delivered by the end of 
November to maintain the JPSS-1 launch date. And your testimony 
now, you say that you can maintain that launch date despite the 
fact that the ATMS won't be delivered until the end of 
December. Can you explain the conflict?
    Dr. Volz. The ATMS delivery date per the plan that we 
established in the summer was no later than the end of November 
to support the plan going forward to a December 2016 launch 
date, correct. The ATMS has slipped to now late December and 
potentially early January, and we have had to look into what we 
have had to take time out of reserve, schedule reserve. The 
late November date was planned for and did not encumber any of 
the reserve, the schedule reserve left in the schedule beyond 
the November. We had to debit against those reserves to 
accommodate the late delivery of the ATMS.
    Mr. Beyer. You had flexibility----
    Dr. Volz. We still had some flexibility. It wasn't a no-
reserve date for delivery in November. We have flexibility. 
We've been using it.
    Mr. Beyer. Great. In your testimony, Dr., you talked about 
that the GOES-R team is applying all the lessons learned from 
the last two years to do timely and successful completion of 
GOES-S, T, U satellites. Does the same theory work with the 
JPSS? Because I know you've now moved to a new contractor for 
JPSS-2. Any risks because you're not building with the old 
contractor on what you learned doing that?
    Dr. Volz. Yes. I mean, I agree with Mr. Powner that going 
to a new contractor--so let me go two points. First, what I 
said is, we're applying the lessons learned over the last two 
years in the integration tests at GOES-R to make sure that the 
schedule we have laid out through this time next year, October 
of next year for the launch, includes those lessons learned, 
and that's why we have confidence based on the last 3 months 
that we're meeting schedules. We still need to revisit what 
that means for the GOES-S, T and U schedules as we roll through 
that, and we're doing that right now.
    Now, as far as changes in the contractor, going from one 
spacecraft vendor to another for the JPSS, that does increase 
risk. That's a factor. That's a risk factor now that we've 
added to the system. It was not there before. And I agree with 
you that it does. You can't say that's not the case.
    Now, whether and where that ranks in the overall risks of 
different risks within the program including cost and schedule 
risk is something we had to look at when we made the 
procurements when we went through the process. So it is an 
increase in risk but not necessarily an increase in the overall 
programmatic execution risk because we have to look at many 
factors when we consider program risk.
    Mr. Beyer. So clearly, when you made the new award, it was 
understanding that this was a piece of the overall puzzle?
    Dr. Volz. Correct, sir.
    Mr. Beyer. Mr. Powner, you said the very attractive idea 
that perhaps Congress could reduce its expenditures in upcoming 
years. Can you expand on that a little?
    Mr. Powner. Well, clearly when you look at the out years 
satellites, the follow-on for the polar constellation and then 
when you get into the out year GOES, there's a question about 
what's the most economical way to go forward. Do you build 
everything as quickly as you can get and get economies of scale 
there and perhaps store them on the ground? Perhaps. Do you 
perhaps slow down the acquisition of some of those out year 
satellites? Perhaps. And I think what--and I know this 
Committee, we've worked with both your staff and the Majority 
staff. They're looking for analysis. There was a comment made 
that Congressman Johnson asked a question about this, about 
tradeoff assessments. I'm not aware of those tradeoffs 
assessments that have satisfied your staff on this Committee. I 
think they need those tradeoff assessments to make the right 
decisions on out year deliveries.
    Mr. Beyer. Great. Thank you.
    Dr. Volz, did you have any comments?
    Dr. Volz. Yeah, I would like to respond to that, and I 
agree entirely that the out year execution needs to be 
addressed. What we have focused our activities on over the last 
five years as we came to the assessment of risk on both the 
polar and geostationary satellites, is that we did not have a 
robust configuration on orbit. Our first and overriding 
priority was to get to a situation where we were fault-
tolerant. We had a single fault--you know, we could suffer the 
loss of a satellite asset and not disable the weather system, 
and so that has dictated the aggressive approach to building 
the GOES-R satellites and our aggressive schedule so that as we 
went through what could be a mission-ending failure. The same 
with the JPSS. So that has been our primary motivation. Once we 
get to that--where we're comfortable in that risk-tolerant or 
fault-tolerant situation on orbit exactly as Mr. Powner 
mentioned, we can look at what is the cadence that we need to 
launch, but we need to have the assets available to have the 
flexibility of making those choices. Until we have that, then 
we can't do anything to make it better or worse.
    Mr. Beyer. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Bridenstine. I'd like to thank the Ranking Member, 
and in closing--oh, very good to see you down there. I 
recognize the gentleman from Alabama, Mr. Palmer, for five 
minutes.
    Mr. Palmer. Mr. Chairman, thank you for recognizing me. I'm 
trying to do my job.
    Chairman Bridenstine. What the taxpayers in Alabama expect.
    Mr. Palmer. Exactly.
    Mr. Volz, the President's budget requested $380 million for 
the Polar Follow-on program. Having seen the cost overruns and 
delays faced by the current satellites, I think maybe you can 
understand our hesitation to fully--or some of us, our 
hesitation to fully support fully funding this program. How 
exactly are these funds going to be used?
    Dr. Volz. Thank you for the question, sir. The Polar 
Follow-on includes the third and fourth series of the JPSS 
satellites. The funds for this, the initial $380 million, are 
primarily to start, and to the extent of about 85 percent of 
those going directly to the instrument providers who have built 
the instruments for Suomi NPP and JPSS-1 and 2. The benefit of 
this approach that we tried to articulate is that we are buying 
the satellite instruments, which are the highest risk, 
potentially the highest, the most impactful elements of any 
satellite system, at a time, at a bulk buy or buying two at 
once, maximizing the efficiency of the procurement at a time 
when the instrument vendors are ready to build those, having 
just finished the same instruments on JPSS-2.
    So the money will be going to the extent of 85 percent of 
it or 90 or thereabouts directly to the main four vendors who 
are supplying instruments for the JPSS-3 and 4 satellites.
    Mr. Palmer. Are those vendors building the components that 
you think are most crucial?
    Dr. Volz. They will be prioritizing----
    Mr. Palmer. That's 85 percent of the money, so the majority 
of the money's going to that?
    Dr. Volz. Yes, sir.
    Mr. Palmer. All right. Let me ask you one other question, 
or I'll ask one other question, Mr. Powner. In GAO's opinion, 
would NOAA incur higher costs if they did not receive all of 
the requested funds to initiate the polar follow-on programs?
    Mr. Powner. I'm not certain. This is back to where the 
appropriate analysis and the tradeoff assessment needs to be 
given to this Committee, to GAO so that we can actually answer 
that question. You need analysis that supports it.
    Mr. Palmer. To close this, and I assume this will close the 
hearing, I just think, you know, handing NOAA another blank 
check to build satellites whenever they--when they can't get 
the ones that they have off the ground it appears a bit 
irresponsible, Mr. Chairman, and I think NOAA needs to fix 
their systematic problems that have plagued the program for 
years before we throw any more money at it.
    I yield the balance of my time.
    Chairman Bridenstine. I'd like to thank the gentleman from 
Alabama.
    It is--it's a very challenging issue that, you know, we 
have delays, we have these challenges, and it seems the only 
answer is more money, more time, more money, more time, and if 
we don't provide it, then we have, you know, quite frankly, 
even bigger problems with data gaps and the inability to 
predict weather. So it puts us here in Congress in a tough 
position when we have these issues.
    But I want to close--you know, I really believe that we can 
augment a lot of these challenges with commercial data. I 
believe that it can reduce the cost. I believe it can prevent 
these kind of scenarios from even occurring if we do it right, 
and we might not be there today, and I understand that. These 
kind of things take time. What I'm--I'm very grateful that in 
the next couple of weeks, you know, before the end of the year, 
we're going to see a final commercial space policy from NOAA 
and then more policies that come after that so that our, you 
know, private sector knows how to work with NOAA in order to 
provide the data that can augment our systems.
    When I see that final Commercial Space Policy, I would 
really like to see two major things. One is that there's a 
difference between upstream and downstream, a difference 
between flat-out raw data, ones and zeros coming off of a 
satellite, and the downstream which are, you know, the end 
products that are available to the public and in the national 
interest. And I'd also like to see a very clear resolution that 
in fact WMO-40 and WMO-25 explicitly permit private-sector 
companies to restrict the redistribution of their data and 
allow those same member countries flexibility and discretion in 
determining which data sets are freely exchanged and under what 
conditions they choose to do so. I think that's important as we 
develop this commercial industry that is going to be good for 
the taxpayer, good for those of us who are trying to protect 
lives and property, and I think these are important issues that 
need to be put into the Commercial Space Policy.
    With that, I want to thank our witnesses for all of your 
time today, thank you for the hard work that both of you do, 
and with that, we are adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Statement submitted by Committee Ranking Member
                         Eddie Bernice Johsnon



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Statement by Subcommittee on Enviorment Ranking Minority Member
                Ranking Minority Member Suzanne Bonamici


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]



</pre></body></html>
